No. _______
IN THE
SUPREME COURT OF THE UNITED STATES
ABDISALAN ABDULAHAB HUSSEIN,

Petitioner,
v.
UNITED STATES OF AMERICA,

Respondent.

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The Petitioner, by and through undersigned counsel, asks leave to file a
Petition for a Writ of Certiorari without payment of costs and to proceed in forma

pauperis pursuant to Rule 39 of the Supreme Court Rules. Counsel was appointed
in the lower court pursuant to 18 U.S.C. ยง 3006A.
This 29th day of December, 2020.
Respectfully submitted,
s/ Rabea Jamal Zayed
Rabea Jamal Zayed

Counsel of Record

Dorsey & Whitney LLP
50 South Sixth Street, Suite 1500
Minneapolis, MN 55402-1498
Telephone: (612) 340-2600
zayed.rj@dorsey.com

Counsel for Petitioner
Abdisalan Abdulahab Hussein

4821-3266-9140\

